                                               OFFICE OF INSPECTOR GENERAL
                                                                       MEMORANDUM




DATE:         September 30, 2003

TO:           Inspector General

THRU:         Thomas Cline
              Assistant Inspector General for Audits

FROM:         Steve Rickrode
              Director, Financial Management Audits

SUBJECT:      Survey of FCC Initiatives for
              Implementing the Government Performance and Results Act of 1993


As part of the fiscal year (FY) 2002 audit plan, we have completed a survey on the
implementation of the Federal Communications Commission’s (FCC’s) initiatives relating to the
compliance with Government Performance and Results Act of 1993 (GPRA). The objectives of
the survey were to : update our understanding of and review FCC’s methodology for developing
GPRA requirements, assess FCC’s compliance with GPRA, review Annual Performance Plans
per established guidance, (4) review the resulting Annual Performance Reports, (5) perform
verification and validation of sampled performance measures from the performance reports,
review the status of prior audit recommendation(s) (OIG 98-01, dated 3/99), and identify areas
where additional audit work should be performed.


REASON FOR SELECTION

GPRA is intended to improve the efficiency and effectiveness of Federal programs through the
establishment of specific goals for program performance. Specifically, the act requires the FCC
to prepare multi-year Strategic Plans, Annual Performance Plans, and an Annual Performance
Report to be issued by March 31 each year. The Director, Office of Management and Budget,
has called upon Inspectors General to “assess agencies technical compliance with the Results
Act as well as their capacity to comply [with the law] from a data and systems perspective.”



                                           1
OBJECTIVE

The objectives of the survey were to: update our understanding of and review FCC’s
methodology for developing GPRA requirements, assess FCC’s compliance with GPRA, review
Annual Performance Plans per established guidance, (4) review the resulting Annual
Performance Reports, (5) perform verification and validation of sampled performance measures
from the performance reports, review the status of prior audit recommendation(s) (OIG 98-01,
dated 3/99), and identify areas where additional audit work should be performed.


BACKGROUND

As Congress seeks to reduce the cost and improve the performance of the Federal government,
holding agencies accountable for results is believed to be key to better management of programs.
However, Congress found that the lack of adequate information on agencies’ performance was
handicapping congressional policymaking, spending decisions, and oversight and diminishing
Federal accountability for program results. In response, Congress enacted GPRA to address
these concerns and thereby improve Federal program effectiveness and public accountability.

GPRA seeks to improve the management of Federal programs by shifting the focus of decision-
making from staffing and activity levels to the results of Federal programs. Under GPRA,
executive agencies are to prepare five-year strategic plans that set the general direction for their
efforts. Agencies then are to prepare annual performance plans that establish the connections
between the long-term strategic goals outlined in the strategic plans and the day-to-day activities
of program managers and staff. Finally, GPRA requires that each agency report annually on the
extent to which it is meeting its annual performance goals and the actions needed to achieve or
modify those goals that have not been met.

FCC submitted its first strategic plan to Congress on November 27, 1996. A revised strategic
plan was subsequently submitted in August 1999. FCC has submitted required strategic plan and
annual performance plans with its Fiscal Year Budget Estimates since FY 1999. FCC’s GPRA
process has come full circle with the release of its Annual Performance Reports for FYs 1999
and 2000 in March 1999 and 2000, respectively. FCC continues to report its performance per
the GPRA reporting process.


SCOPE OF SURVEY WORK PERFORMED

This project was conducted as a survey. A survey is the preliminary audit work done before an
audit and is not an audit conducted in accordance with Government Auditing Standards (i.e.,
GAO “Yellow Book” standards). The purpose of a survey is to gather general working
information on important aspects of an entity, activity, or program and to determine the nature
and extent of any subsequent audit effort.


                                             2
The purpose of this particular survey was to examine the Commission’s initiatives for
implementing GPRA, perform follow-up steps to a previous Office of Inspector General (OIG)
audit, and recommend the next course of action.


SUMMARY OF OBSERVATIONS

As part of the survey process, we evaluated the Commission’s implementation of the GPRA
reporting process to identify areas where weaknesses or inefficiencies exist which may require
more comprehensive audit coverage. Additionally, performance reporting is included in the
scope of the annual financial statement audit conducted by the OIG. A brief summary per key
component of GPRA follows:

Strategic Plan
The revised annual strategic plans did not contain a description of program evaluations used in
revising the general goals and objectives. Additionally, revised annual strategic plans did not
include a schedule of future program evaluations. The plans did not outline the general
methodology to be used, timetable, general scope of the evaluation(s), or particular issues to be
addressed. A statement to the effect that the agency would not be conducting program
evaluations during the time period of the plan(s) was not included either.

Annual Performance Plan
FCC annual plans submitted with the Budget Estimate to Congress do not include a description
of the means that will be used to verify and validate measured values. Additionally, the plans
did not clearly address a description of the operational processes; skills and technology; and the
human, capital, information, or other resources required to meet the performance.

Annual Performance Report
FCC performance reports did not include a summary of findings for program evaluations
completed during the fiscal year covered by the report, nor did they describe the use or assess the
effectiveness of achieving the performance goals. Additionally, FCC’s performance reports did
not consistently explain and describe, where a performance goal had not been met, why the goal
was not met and the plans and schedules for achieving the established performance goal.
Furthermore, no deferrals of the explanations were noted in the reports.

Future GPRA Audit Coverage
The OIG plans to perform an audit of the Commission’s first annual Performance and
Accountability Report (PAR) which will be issued, at the end of and, covering fiscal year 2004.
FCC is not required to issue a PAR for fiscal year 2003 per the implementation guidance for the
Accountability of Tax Dollars Act of 2002.




                                             3
CONCLUSION

Based on the results of this survey and the coverage of performance reporting in the annual
financial statement audit, the OIG should not perform any additional audit work on the current
implementation of GPRA at the FCC. Instead, the OIG should focus on continue performing
GPRA work as part of its future financial statement audits. However, upon the release of the
PAR in early fiscal year 2005, the OIG should and intends to conduct an audit of the
Commission’s performance reporting process supporting the creation and submission of its
annual PAR.




                                            4
